Arrowhead Visa® Credit Card and
Visa® Classic Secured Credit Card
Important Disclosure Information

Effective: April 1, 2020

Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases 1
APR for Balance Transfers 1
APR for Cash Advances 1
Penalty APR 2 and
When it Applies

Arrowhead Visa 9.99% to 24.99% when you open your account, based
on your creditworthiness. After that, your APR will be a variable rate that varies
with the market based on the Prime Rate1.
Visa Classic Secured 17.99% This APR is a variable rate that varies with
the market based on the Prime Rate1
Arrowhead Visa 16.99% to 31.99% when you open your account, based on your
creditworthiness. After that, your APR will be a variable rate that varies with the
market based on the Prime Rate2.
Visa Classic Secured 24.99% This APR is a variable rate that varies with the
market based on the Prime Rate2.
This APR may be applied to your account if you:
1) Make a late payment that is sixty (60) days past due; or
2) Make a payment that is returned causing your account to be past due.
How Long Will the Penalty APR Apply? If your APRs are increased for any of
these reasons, the Penalty APR will apply until you make six (6) consecutive
minimum payments when due.

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will not
charge you interest on purchases, balance transfers and cash advances if you
pay your entire balance by the due date each month.

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
 Balance Transfer
 Cash Advance
 Foreign Transaction

Penalty Fees
 Late Payment
 Over-the-Credit Limit
 Returned Payment

None
None
None
1% of each transaction in U.S. Dollars (transactions made in foreign currency)
0.8% of each transaction in U.S. Dollars (transactions made in foreign currency,
billed in U.S. Dollars)
Up to $15
None
None

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Visa Credit Card
Agreement.
1.

The Prime Rate (Index) used to determine the APR is 3.25%. We will add a Margin based on your credit score to determine your
APR and corresponding Daily Periodic Rate.

2.

The Prime Rate (Index) used to determine the Penalty APR is 3.25%. We will add a Margin based on your credit score to determine
your Penalty APR and corresponding Daily Periodic Rate.

Revised 4/2020

